FEBRUARY 14, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




 NASA’S ENVIRONMENTAL REMEDIATION EFFORTS AT
     THE SANTA SUSANA FIELD LABORATORY




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-007 (ASSIGNMENT NO. A-12-011-01)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

AOC          Administrative Order of Consent
CEQ          Council on Environmental Quality
CERCLA       Comprehensive Environmental Response, Compensation, and Liability Act
DOE          U.S. Department of Energy
DTSC         California Department of Toxic Substances Control
EIS          Environmental Impact Statement
EMD          Environmental Management Division
EPA          Environmental Protection Agency
FY           Fiscal Year
GSA          General Services Administration
NEPA         National Environmental Policy Act
OIG          Office of Inspector General
RCRA         Resource Conversation and Recovery Act
SB           Senate Bill
SSFL         Santa Susana Field Laboratory
TCE          Trichloroethylene


                                                                 REPORT NO. IG-13-007
FEBRUARY 14, 2013




                                                                                         OVERVIEW

  NASA’S ENVIRONMENTAL REMEDIATION EFFORTS AT THE
  SANTA SUSANA FIELD LABORATORY
                                                                                           The Issue

  The Santa Susana Field Laboratory (Santa Susana or SSFL) is located on 2,850 acres in
  the Simi Hills of Ventura County, California, approximately 30 miles northwest of
  downtown Los Angeles. First opened in 1948 in what was then a remote area, the facility
  was for many years the site of research efforts on civilian use of nuclear energy by the
  Department of Energy (DOE) and rocket testing for defense and space exploration by the
  United States Air Force (Air Force) and NASA.1 Over the years, these activities resulted
  in radiological and chemical contamination of the soil and groundwater at the site.

  NASA is responsible for administering 451.2 acres in two areas of the SSFL site, which
  includes 41.7 acres of Area I and all 409.5 acres of Area II. The Boeing Company
  (Boeing) owns and operates the remainder of the SSFL, and the DOE leased property in
  Area IV from Boeing. The Santa Susana site is home to at least 10 species of sensitive
  plants and at least 5 species of sensitive wildlife, as well as the Burro Flats Painted Cave,
  which contains pictographs and petroglyphs created by early Native Americans.

  For many years, the Santa Susana facility has been the subject of considerable attention
  from anti-nuclear activists, environmentalists, and the public. From the mid-1950s until
  the mid-1990s, DOE and its predecessor agencies conducted civilian nuclear research and
  energy development projects at the SSFL.2 A partial meltdown at one of the nuclear
  facilities in 1959 led to a release of radioactive contaminants.

  Although radioactive contamination remains a concern in the DOE portion of the SSFL,
  the primary contaminant in the NASA-administered areas of the site is trichloroethylene
  (TCE), a nonflammable, colorless liquid identified as a potential carcinogen. NASA and
  the Air Force used large quantities of TCE to clean rocket engines, and prior to the early
  1960s when catch basins were installed, allowed the substance to run freely onto the
  ground. While the Air Force was a large contributor to the TCE contamination, NASA –
  as the current administrator of the property – has assumed responsibility for the cleanup.




  1
      The area has become much less remote over time. More than 500,000 people currently live in southern
      Ventura County, California, where the SSFL is located.
  2
      DOE’s predecessor agency was the Atomic Energy Commission.



REPORT NO. IG-13-007
                                                                                                           OVERVIEW



     NASA, like all Federal agencies, is required to comply with laws and regulations that
     govern cleanup of contaminants left behind from Agency activities.3 Generally, these
     laws require responsible parties to conduct risk assessments to identify and evaluate the
     threat that contaminants pose to human health and structure their remediation efforts
     based on the results of those assessments. One of the principal factors considered in this
     type of assessment is the reasonably foreseeable use of the affected property, such as
     agriculture, housing, industry, or recreation. Each scenario assumes future users will be
     exposed to some amount of residual contamination at the site, with greater assumed
     exposure requiring a more stringent cleanup standard. The various clean-up levels
     potentially applicable to a site like the SSFL include background, residential, and
     recreational.4

     Boeing has publicly stated that it intends to preserve its portion of the SSFL site – by far
     the largest section – for use as open space parkland upon completion of cleanup
     activities. Similarly, NASA officials told us that the anticipated future use of the NASA
     portion of the SSFL site is for recreation.

     NASA has been involved in cleanup activities at the SSFL since at least the early 1980s.
     In August 2007, NASA, Boeing, and DOE signed consent orders with California’s
     Department of Toxic Substances Control (DTSC) agreeing to clean up groundwater and
     soil at the SSFL to residential exposure levels. Shortly thereafter, in October 2007,
     California Senate Bill No. 990 (SB 990) was enacted. SB 990 applies only to the SSFL
     and requires that the site be restored to either a “suburban residential” or a “rural
     residential (agricultural)” level, whichever will produce the lower permissible residual
     concentration for each contaminant. The legislation specifically prohibits the sale, lease,
     or other transfer of the property unless DTSC certifies that the land has undergone
     complete remediation.

     In November 2009, Boeing filed a Federal lawsuit challenging SB 990 as violating the
     U.S. Constitution. In April 2011, a judge in the United States District Court for the
     Central District of California ruled in Boeing’s favor and declared the law
     unconstitutional. The State of California appealed that decision and oral arguments are
     expected before the U.S. Court of Appeals for the Ninth Circuit in early 2013.

     In December 2010, NASA entered into a second agreement with the DTSC known as the
     Administrative Order of Consent for Remedial Action (AOC). Under the terms of the
     AOC, NASA agreed that the 2007 consent order would continue to govern its cleanup
     obligations related to groundwater at Santa Susana, but the Agency would be required to

     3
         The three primary environmental laws are the National Environmental Policy Act of 1969, 42 U.S.C. §§
         4321-4347; the Comprehensive Environmental Response, Compensation, and Liability Act, 42 U.S.C.
         §9601 et seq.; and the Resource Conservation and Recovery Act of 1976, 42 U.S.C. §6901 et seq.
     4
         Background level means returning the site to its natural state prior to the introduction of contaminants.
         Residential level assumes that an adult or child could live on the remediated site 24 hours per day, 350
         days per year, for 30+ years. Recreational level assumes that an adult or child could be exposed several
         hours a day for about 50 days per year over a 30-year period without adverse health effects.



ii                                                                                          REPORT NO. IG-13-007
OVERVIEW



  return the soil to its original state before any testing activities occurred – referred to in the
  AOC as “background” levels. NASA further agreed that it would complete soil cleanup
  to this standard by 2017.

  To comply with the 2010 Order, NASA budget requests include proposed funding
  increases of approximately $30 million per year from fiscal years (FYs) 2014 through
  2017 (an additional $120 million total for the 4 years). NASA estimates that cleanup
  costs for Santa Susana to the AOC standard could cost at least $200 million. In contrast,
  estimates to clean the site to a standard suitable for residential and recreational use are in
  the range of $76 million and $25 million, respectively. Santa Susana is not the only
  pending environmental remediation project at NASA. According to Agency
  environmental management officials, several other projects pose greater risks to human
  health and the environment than Santa Susana.

  The AOC includes a provision for NASA to follow the National Environmental Policy
  Act (NEPA), which requires the Agency to complete an Environmental Impact Statement
  (EIS) for its cleanup activities at Santa Susana.5 As part of this process, NASA initially
  identified five possible alternatives for remediation of the site, including cleaning to
  residential and recreational use standards. However, NASA’s inclusion of alternatives
  other than cleanup to background levels caused concern among DTSC officials and
  California political leaders.

  In May 2012, DTSC sent a letter to the NASA Administrator to request that “NASA
  modify its…process to align itself with…a cleanup of the site to background levels…in
  compliance with the AOC” rather than evaluate less stringent cleanup alternatives. In
  addition, Senator Barbara Boxer from California asked the Council on Environmental
  Quality (CEQ), a White House office that coordinates Federal environmental efforts and
  works closely with agencies in the development of environmental policies, whether
  NASA was legally required to consider cleanup options other than background level.
  After the CEQ advised the Senator that there was no such requirement, NASA limited its
  EIS process to consideration of only one cleanup standard – background levels.

  Given the high cost of the SSFL cleanup and the unusual legal underpinnings of the
  AOC, we examined whether NASA’s plans to clean up environmental contamination at
  Santa Susana conform with the laws and standards that generally govern such
  remediation efforts and provide the best value to the taxpayer. Details of the audit’s
  scope and methodology are in Appendix A.

                                                                                                   Results

  NASA has agreed to clean its portion of the Santa Susana site to a level that exceeds the
  generally accepted standard necessary to protect human health in light of the expected
  5
      An EIS is a detailed evaluation of the Agency’s proposed action and possible alternatives. The public,
      other Federal agencies, and outside parties may provide input into development of an EIS and are
      afforded an opportunity to comment on the resulting draft EIS.



REPORT NO. IG-13-007                                                                                           iii
                                                                                         OVERVIEW



     future use of the site. Moreover, the cleanup is likely to cost the taxpayers significantly
     more than the cleanup effort NASA agreed to in its 2007 Consent Order with the State of
     California – a remediation level itself that was more stringent than what would be
     required based on the expected use of the site. Although the precise outlines of the
     cleanup effort and therefore its ultimate cost have not been finalized, NASA estimates
     that cleaning the SSFL to background levels could cost more than $200 million, or more
     than twice the cost to clean it to residential levels and more than eight times the cost to
     clean it to a recreational use standard. In addition, because cleanup to background levels
     may require highly invasive soil removal, there is a risk that such a cleanup would result
     in significant damage to the surrounding environment and to archeological, historical,
     and natural resources at the site.

     Management Action

     We recommend that the Administrator, with the assistance of the Associate Administrator
     for Mission Support, reexamine the Agency’s current plans for cleaning the NASA-
     administered portion of the Santa Susana site and ensure that its environmental
     remediation is conducted in the most cost-effective manner in keeping with the expected
     future use of the property.

     In accordance with our usual practice, we provided NASA with a draft of this report and
     requested the Agency respond to our recommendation. Typically, the Agency indicates
     whether it concurs with our recommendation and describes any corrective actions it plans
     to undertake to meet the intent of the recommendation. However, in this case NASA
     declined to indicate whether it agreed or disagreed with our recommendation.

     Rather, after noting that NASA “fully appreciates” our recommendation, the Associate
     Administrator stated that the Agency will continue to work with the DTSC and local
     community stakeholders “within the requirements” of the AOC and at the same time will
     “make every effort to implement a [cleanup] program that will achieve both cost
     avoidance and protection of cultural and natural resources.” In addition, the Associate
     Administrator noted several recent developments that may affect how the AOC is
     interpreted and implemented. (See Appendix F for Management’s Response).

     Although we are encouraged by NASA’s pledge to work toward a cleanup that achieves
     cost avoidance and preserves cultural and natural resources, it is not clear that the Agency
     can achieve the most appropriate and cost-effective remediation effort given the
     constraints of the current AOC. Accordingly, our recommendation remains unresolved
     and we will continue to monitor the Agency’s efforts to clean the Santa Susana site.




iv                                                                          REPORT NO. IG-13-007
FEBRUARY 14, 2013




                                                                 CONTENTS

  INTRODUCTION
      Background _______________________________________________ 1
      Objectives ________________________________________________ 9


  RESULTS
      NASA has Committed to an Excessive and Unnecessarily
        Costly Cleanup _______________________________________ 10


  APPENDIX A
      Scope and Methodology ____________________________________          18
      Criteria _________________________________________________          18
      Review of Internal Controls _________________________________       19
      Prior Coverage ___________________________________________          19


  APPENDIX B
      Letter from Senator Boxer to the NASA Administrator_____________ 21


  APPENDIX C
      Letter from DTSC to the NASA Administrator____________________ 22


  APPENDIX D
      Letter from CEQ to Senator Boxer ____________________________ 27


  APPENDIX E
      Letter from the San Fernando Valley Audubon Society to the NASA
         Assistant Administrator for Strategic Infrastructure ____________ 29


  APPENDIX F
      Management Comments ______________________________ 32

  APPENDIX G
      Report Distribution ________________________________________ 34




REPORT NO. IG-13-007
FEBRUARY 14, 2013




                                                                                       INTRODUCTION


Background

  The Santa Susana Field Laboratory (Santa Susana or SSFL) is located on 2,850 acres in
  the Simi Hills of Ventura County, California, approximately 30 miles northwest of
  downtown Los Angeles. First opened in 1948 in what was then a remote area, the facility
  was for many years the site of research efforts on civilian use of nuclear energy directed
  by the Department of Energy (DOE) and rocket testing for defense and space exploration
  by the United States Air Force (Air Force) and NASA.6 Over the years, these activities
  resulted in radiological and chemical contamination of the soil and groundwater at the
  site. NASA ended its testing activities at the Santa Susana site in 2006.

  As illustrated in Figure 1, the SSFL is divided into four areas. NASA is responsible for
  administering 41.7 acres in Area I and all 409.5 acres of Area II. NASA acquired Area II
  in 1973 and the Area I acreage in 1976 from the Air Force. The Boeing Company
  (Boeing) – which operated as both a contractor for the Government and in its private
  capacity – owns and operates the remaining 2,398.8 acres in Areas I, III, and IV. DOE
  leases property in Area IV from Boeing. The site is home to at least 10 species of
  sensitive plants, at least 5 species of sensitive wildlife, and to the Burro Flats Painted
  Cave, which contains pictographs and petroglyphs created by early Native Americans.7




  6
      The area has become much less remote over the past several decades. At the time of our review, more
      than 500,000 people live in southern Ventura County, California, where the SSFL is located.
  7
      Pictographs are rock art paintings and petroglyphs are rock art that has been scored or cut into the rock
      surface.



REPORT NO. IG-13-007                                                                                              1
                                                                                   INTRODUCTION



                                  Figure 1 - Santa Susana Field Laboratory




        Source: NASA Santa Susana Field Fact Sheet



    For many years, the Santa Susana facility has been the subject of considerable attention
    from anti-nuclear activists, environmentalists, and other members of the public. From the
    mid-1950s until the mid-1990s, DOE and its predecessor agency conducted nuclear
    research and energy development projects at Area IV of the SSFL, including nuclear
    operations (development, fabrication, disassembly, and examination of nuclear reactors,
    reactor fuel, and other radioactive materials) and large-scale experiments for testing fast
    breeder reactor components.8 A partial meltdown in 1959 at a nuclear facility operated
    by a DOE predecessor agency led to the release of radioactive contaminants. As a result
    of these and other activities, various locations on the site contain radioactive and
    chemical contamination. Although DOE’s predecessor agency issued a press release a
    few weeks after the meltdown incident, individuals and groups in California have raised
    concerns over the years about the adequacy of the public disclosures and the potential
    health risks posed by the contamination.

    The primary contaminant in the NASA-administered areas of the site is trichloroethylene
    (TCE), a nonflammable, colorless liquid that has been identified as a potential

    8
        DOE’s predecessor agency was the Atomic Energy Commission.



2                                                                            REPORT NO. IG-13-007
INTRODUCTION



  carcinogen. NASA and the Air Force used large quantities of TCE to clean rocket
  engines and prior to the early 1960s when catch basins were installed, allowed the
  substance to run freely onto the ground. NASA has determined that over the years more
  than 500,000 gallons of TCE were released to the ground at the Santa Susana site. While
  the Air Force was a large contributor to the TCE contamination at the SSFL, NASA – as
  the current administrator of the property – has assumed responsibility for the cleanup.
  See Figure 2 for NASA test stands and surrounding area at Santa Susana.

  In October 2007, frustrated by the pace of clean-up efforts at Santa Susana, the California
  legislature enacted Senate Bill (SB) 990, which prescribes specific remediation
  requirements for the SSFL, including that the site be restored to accommodate either
  “suburban residential” or “rural residential” use, whichever will produce the lower
  permissible residual concentration for each contaminant.9 The legislation specifically
  prohibits the sale, lease, sublease, or other transfer of the property unless the California
  Department of Toxic Substances Control (DTSC) certifies that the land has undergone
  complete remediation. In November 2009, Boeing challenged the constitutionality of SB
  990 in Federal court. Although the company won its suit at the district court level, the
  State has appealed that ruling to the U.S. Court of Appeals for the Ninth Circuit.




  9
      At the time SB 990 was enacted, “Suburban Residential” referred to safe exposure levels for a residential
      or community neighborhood area and “Rural Residential” referred to safe exposure levels for an
      agricultural or farmland area where food is grown or livestock is raised. “Background” and “Rural
      Residential” refer to similar levels of cleanup. At the time of preparation of NASA’s Cost Estimates,
      NASA’s EIS documents, and NASA’s EIS presentation to the community in 2012, the terminology for
      the exposure levels under consideration was more generalized and the levels identified were (1)
      Background, (2) Residential, (3) Industrial, (4) Recreational, and (5) No Action.




REPORT NO. IG-13-007                                                                                              3
                                                                                               INTRODUCTION



               Figure 2 - NASA Test Stands and Surrounding Area at SSFL




              Source: OIG (May 2012)


    In 2009, NASA reported the SSFL as excess property to the General Services
    Administration (GSA), one of the first steps in the formal process of divesting itself of
    the property. GSA will decide how the NASA portion of the SSFL will ultimately be
    disposed of. While Boeing is cleaning its portion of the SSFL site – by far the largest
    section – to residential cleanup standards, it has publicly stated that it intends to preserve
    the area for use as open space parkland upon completion of its cleanup activities.
    Although they have no formal role in the ultimate disposition of the NASA-administered
    property, Agency officials said they also expect this portion ultimately will be used as a
    recreational area.

    Federal and State Laws Govern Environmental Remediation of Facilities. A
    complex collection of Federal and state laws govern remediation of environmental
    contamination at sites like the SSFL. The Comprehensive Environmental Response,
    Compensation, and Liability Act (CERCLA), also known as the “Superfund,” addresses
    remediation at inactive and abandoned hazardous waste sites.10 The Federal Government
    controls cleanup of areas designated as Superfund sites. In addition, the Resource
    Conservation and Recovery Act (RCRA) sets up an environmental corrective action
    program administered by the U.S. Environmental Protection Agency (EPA) and 43
    authorized states and territories to work with responsible facilities to investigate and
    clean up hazardous releases.11 Under RCRA, regulatory authority over site cleanup may
    be delegated to a state. The National Environmental Policy Act (NEPA) requires Federal
    10
          The Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA), codified at
         42 U.S.C. §9601 et seq. (1980).
    11
          The Resource Conservation and Recovery Act (RCRA) of 1976, codified at 42 U.S.C. §6901 et seq.
         (1976).



4                                                                                     REPORT NO. IG-13-007
INTRODUCTION



  agencies to consider the environmental impacts of their actions and reasonable
  alternatives to those actions.12 Under the statute, agencies must publicly disclose their
  proposed actions (including alternatives), consider and address any comments they
  receive from the public following that disclosure, and prepare Environmental Impact
  Statements (EIS) for activities that will have a significant effect on the environment.13
  NEPA also created the Council on Environmental Quality (CEQ), a White House office
  that coordinates Federal environmental efforts and works closely with agencies in the
  development of environmental policies.14

  Because Santa Susana is located in California, the state’s environmental laws and
  regulatory apparatus also affect cleanup of the site. According to the DTSC policy,
  remediation efforts should “take into consideration the future land use of the site to
  ensure that remedial action protective of public health and the environment.”15 In
  addition, California enacted SB 990 in 2007 to address contamination at the SSFL.

  Federal law requires responsible parties to conduct risk assessments to identify and
  evaluate the threat that contaminants pose to human health and structure their remediation
  efforts based on the results of such assessments. These assessments determine the risk
  posed to human health and the environment by any contamination that will remain at the
  site upon completion of a cleanup. One of the principal factors considered in such an
  assessment is the reasonably foreseeable use of the affected property, such as agriculture,
  housing, industry, or recreation. Each scenario assumes future users will be exposed to
  some amount of residual contamination at the site, with greater assumed exposure
  requiring a more stringent cleanup standard.

  For example, a site likely to be used for growing food would require a more extensive
  remediation effort, while one expected for industrial use would require a less stringent
  cleanup and therefore permit higher concentrations of contaminants to remain on the site.
  Under the normal assessment process, the reasonably foreseeable future use of a site is
  determined by considering several factors, including the current use of the land, general
  land use plans, topography and natural resources, cultural resources, and the presence of
  endangered species.


  12
       The National Environmental Policy Act of 1969 (NEPA), as amended, codified at 42 U.S.C. §§ 4321-
       4347.
  13
       An Environmental Impact Statement (EIS) is a detailed evaluation of the Agency’s proposed action and
       possible alternatives. The public, other Federal agencies and outside parties may provide input into
       development of an EIS and then are afforded an opportunity to comment on the resulting draft EIS.
  14
       The Council on Environmental Quality oversees NEPA. The duties of the Council include gathering
       information on the conditions and trends in environmental quality; evaluating federal programs in light
       of the goals established in NEPA; developing and promoting national policies on environmental quality;
       and conducting studies, surveys, research, and analyses relating to ecosystems and environmental
       quality.
  15
       DTSC policy titled “Oversight and Supervision of Investigations and Removal and Remedial Actions at
       Hazardous Substance Sites,” effective July 1, 1992.



REPORT NO. IG-13-007                                                                                             5
                                                                                                     INTRODUCTION



    Table 1 shows the various cleanup or remediation levels possible for a site like the SSFL
    and the underlying assumptions associated with each level.


                                     Table 1: Definition of Cleanup Level

                 Cleanup Level         Definition (Assumptions for Establishment of Exposure Limits)
                 Background            Returns the environment to its natural state prior to the introduction of
                                       contaminants.

                 Residential           Assumes that an adult or child could live on the remediated site 24 hours
                                       per day, 350 days per year, for 30+ years without adverse health impacts.
                 Industrial            Assumes workers could remain on the remediated site for 8 to 10 hours
                                       per day, 250 days per year over a 25-year period without adverse health
                                       impacts.
                 Recreational          Assumes that an adult or child could be exposed several hours per day for
                                       about 50 days per year over a 30-year period without adverse health
                                       impacts.
               Source: NASA SSFL Fact Sheet


    NASA Signed Consent Orders with State of California Governing Remediation at
    the SSFL. NASA has been involved in cleanup activities at the SSFL since at least the
    early 1980s. In August 2007, NASA, Boeing, and DOE signed a Consent Order for
    Corrective Action with the DTSC under which the Agency committed to clean up
    groundwater and soil in the portions of the SSFL it administers to “residential” exposure
    levels. According to the Federal district court that heard Boeing’s legal challenge to SB
    990, it is undisputed that cleanup to the residential level will fully protect human health
    and environment. Shortly after this Consent Order was signed, the California legislature
    enacted California Senate Bill (SB) 990, which imposes a stricter clean-up standard than
    the Consent Order.

    In December 2010, NASA entered into another agreement with DTSC known as the
    Administrative Order of Consent for Remedial Action (AOC).16 Under the terms of the
    AOC, NASA agreed that the 2007 Consent Order would continue to govern its cleanup
    obligations related to groundwater at Santa Susana (i.e., residential level), but the Agency
    would be required to clean the soil to the more stringent “background” level. NASA
    further agreed that soil cleanup at the site would be completed by 2017. According to a
    press release issued by the California EPA at the time, the AOC “meets the high bar set
    by Senate Bill 990 which requires the entire SSFL property to be cleaned up to stringent
    and protective standards, and places the cleanup of both chemical and radioactive
    contamination under the oversight of DTSC.”



    16
         Under California state law, an Administrative Order of Consent is an agreement signed by the DTSC and
         an individual, business, or other entity through which the violator agrees to take the required corrective
         actions or to refrain from an activity.



6                                                                                           REPORT NO. IG-13-007
INTRODUCTION



  At NASA’s insistence, the AOC includes a provision requiring the Agency to “make its
  specific decisions on how to conduct the cleanup to background defined in this
  Agreement in accordance with the requirements of [NEPA].” Accordingly, in August
  2011, NASA held a series of public meetings as part of the process to define the scope
  and range of considerations for the draft EIS.17 In March 2012, NASA held another
  public meeting to update the community on their efforts to draft the EIS. In their public
  presentation, NASA officials identified five possible alternatives for remediation of the
  site, including cleaning to residential and recreational standards.

  NASA’s inclusion of alternatives other than a cleanup to background levels caused
  concern among DTSC officials, California political leaders, and some interest groups.18
  In March 2012, California Senator Barbara Boxer sent a letter to the NASA
  Administrator citing NASA’s commitment to “clean up the site to the conditions that
  existed prior to NASA’s activities.” In May of that year, DTSC sent a letter to the
  Administrator to request that “NASA modify its NEPA process to align itself with …a
  cleanup of the site to background levels …in compliance with the AOC.” That same
  month, Senator Boxer sent a letter to the CEQ asking whether NEPA required NASA to
  evaluate alternatives other than background level. In its June 2012 response, the CEQ
  advised “…there is no requirement that NASA consider alternatives that cleanup to other
  standards that differ from the agreement with the State.”19 Thereafter, NASA limited its
  EIS process to consideration of only two alternatives: cleanup to background and “no-
  action.”20

  NASA officials expect to complete a draft EIS by spring 2013. Under the terms of the
  AOC, this draft will be shared with DTSC for comment, followed by a public comment
  period. Thereafter, NASA will draft the final EIS.


  17
       Scoping is an early step in the NEPA process that helps the Agency prepare a comprehensive EIS by
       identifying environmental resources and concerns important to the community. The scoping process
       does not resolve differences concerning the merits of a project or anticipate the ultimate decision about a
       proposed project.
  18
       For example, in September 2011 the Natural Resources Defense Council and the Committee to Bridge
       the Gap stated “We recommend that NASA narrow the scope of its environmental analysis to the
       decisions about which it has discretion and which do not violate the AOC, i.e., the dismantlement of
       structures at the site (to the extent your regulator DTSC decides such alternatives would not interfere
       with the cleanup of toxic contamination at, around, or beneath them) and/or the implementation of the
       cleanup to background (to the extent those implementation decisions are not the purview of the DTSC as
       your regulator). NASA should clarify that any review will not include consideration of whether to
       comply with the AOC’s requirement of cleanup to background but will be restricted, as required by the
       AOC, to how to do so.” [emphasis in original].
  19
       The Supreme Court has recognized that the CEQ’s interpretation of NEPA is entitled substantial
       deference. See Robertson v. Methow Valley Citizens Council, 490 U.S. 332, 355-56 (1989) and Andrus
       v. Sierra Club, 442 US 347.358 (1979).
  20
       See Appendix B for the letter from Senator Boxer to the NASA Administrator, Appendix C for the letter
       from the DTSC to the NASA Administrator, and Appendix D for the letter from the CEQ to Senator
       Boxer.



REPORT NO. IG-13-007                                                                                                 7
                                                                                                    INTRODUCTION



    Until the NEPA process is concluded, NASA cannot recommend a final course of action
    for the Santa Susana cleanup. However, not considering the full range of cleanup options
    as part of the NEPA process elevates the risk of challenges to NASA’s NEPA process. In
    contrast, because the Agency committed itself to cleaning up the site to background
    levels in the AOC, NASA may leave itself exposed to a legal challenge from California if
    it does not honor that commitment.

    Costs and Effects of NASA’s Environmental Remediation Efforts at SSFL. NASA
    estimates that the amount to clean the Santa Susana site to background levels could cost
    more than $200 million.21 In comparison, estimates to clean the site to a standard
    suitable for residential and recreational use are approximately $76 million or $25 million,
    respectively. To fund its cleanup efforts under the terms of the 2010 AOC, NASA plans
    to request funding increases from Congress of approximately $30 million per year from
    FYs 2014 through 2017.22

    NASA’s Environmental Management Division (EMD) prioritizes Agency remediation
    projects using a scoring system that measures risk to human health and the
    environment.23 In addition, NASA considers political risk in making the prioritization
    decisions for its remediation projects. Under EMD’s risk matrix, 25 is the highest
    possible score a project can receive. For FY 2012, EMD listed 89 NASA environmental
    remediation projects, including 7 associated with the SSFL cleanup. The Santa Susana
    projects each received a score of 23. Thirteen other projects, including a project to
    remove contaminants from the drinking water used by communities surrounding the Jet
    Propulsion Laboratory (JPL) received scores of 23 or higher. EMD’s remediation list for
    FY 2013 contains 99 projects, 13 of which are associated with the SSFL. Four of the
    SSFL projects received scores of 25 and the remaining SSFL projects received scores of
    23. NASA’s project list also included 25 other projects that received scores of 23 or
    higher.

    Boeing’s Legal Challenges to SB 990. In April 2011, the Federal judge assigned to hear
    Boeing’s challenge to SB 990 ruled that the law violates the Supremacy Clause of the
    U.S. Constitution because it regulates the disposal of radioactive waste, an area within the
    exclusive jurisdiction of the Federal Government. In addition, the District Court judge
    held that SB 990 violated the doctrine of intergovernmental immunity because it treats
    Boeing more harshly than other private landowners.24 The Federal Government was not
    a party to this case and the ruling does not directly affect NASA. However, because SB
    990 formed the basis for the AOC, the ruling may provide NASA an opportunity to
    reexamine its approach to the SSFL cleanup.

    21
         The estimate includes the cost of cleaning up the soil under the terms of the AOC. It does not include the
         cost of cleaning up the groundwater, which is still governed by the 2007 Consent Order.
    22
         NASA’s planned request for funding increases for FYs 2014 through 2017 do not cover the full cost of
         the cleanup effort. The remaining cost would be taken from the existing budget.
    23
         The term “environment” in this context includes the threat to human health.
    24
         Boeing Co. v. Robinson, Case number: 10-4839-JFW (MANx), 2011 (C.D. Cal. Apr. 26, 2011).



8                                                                                          REPORT NO. IG-13-007
INTRODUCTION



  The State of California has appealed the District Court’s ruling, and oral arguments are
  expected before the U.S. Court of Appeals for the Ninth Circuit in early 2013. In the
  meantime, Boeing has continued its efforts to clean its portion of the SSFL site to a
  residential exposure level. See Figure 3 for the timeline of recent events at SSFL.


                             Figure 3 – Timeline of Recent Events at SSFL

                                                                            Administrative
     Consent Order for
                                 SB 990            Boeing Lawsuit         Order on Consent       SB 990 Status
     Corrective Action
                                                                         for Remedial Action


                                                                                                  California appeals
         In August 2007,                                                     In late 2010, DOE     the lower court
        NASA, Boeing, and                             Boeing files a           and NASA sign
                                                         lawsuit in                                ruling, which is
           DOE sign the                                                         new orders,          now pending
          Consent Order          Passed into law     November 2009          which superceded
                                                    challenging SB 990                              before the 9th
        which governs soil       October 2007.                                2007 Order for      Circuit U.S. Court
        and groundwater                                     as                 soil cleanup to
                                                     unconstitutional.                                of Appeals
             cleanup.                                                       background levels.




                                                                                                     SB 990 ruled
                                                                                                   unconstitutional
                                                                                                     by a Federal
                                                                                                   District Court in
                                                                                                      April 2011




   Source: NASA OIG



Objectives

  In this audit, we examined whether NASA’s plans to clean up environmental
  contamination at the SSFL conform with the laws and standards that generally govern
  such remediation efforts and provide the best value to the taxpayer. See Appendix A for
  details of the audit’s scope and methodology, criteria, our review of internal controls, and
  a list of prior coverage.




REPORT NO. IG-13-007                                                                                                   9
                                                                                                         RESULTS




                                        NASA COMMITTED TO AN EXCESSIVE AND
                                             UNNECESSARILY COSTLY CLEANUP
                NASA has agreed to clean its portion of the Santa Susana site to a level that
                exceeds the generally accepted standard necessary to protect human health in light
                of the expected future use of the site. Moreover, the cleanup is likely to cost
                taxpayers significantly more than the cleanup effort NASA agreed to in its 2007
                Consent Order with the State of California – a remediation level that was more
                stringent than what would be required based on the expected use of the site.
                Although the precise outlines of the cleanup effort and therefore its ultimate cost
                have not been finalized, NASA estimates that the cost to clean the soil to
                background levels could exceed more than $200 million. This is more than twice
                the cost to clean the site to residential levels and more than eight times the
                approximately $25 million NASA estimates it would cost to clean the site to a
                recreational use standard.25 In addition, because cleanup to background levels
                may require highly invasive soil removal, there is a greater risk that such a
                cleanup may result in significant damage to the surrounding environment as well
                as to archeological, historical, and natural resources at the site.

     NASA’s Remediation Plan Commits the Agency to a Cleanup Standard Not Based
     on Risk to Health. Environmental cleanup standards generally are set after measuring
     the risks to human health in light of the expected future use of the property. While
     Boeing is cleaning its portion of the SSFL site – by far the largest section – to residential
     cleanup standards, it has publicly stated that it intends to preserve the site for use as open
     space parkland upon completion of its cleanup activities. Although final disposition of
     the NASA-administered portions of the SSFL lies with the GSA, NASA officials said
     they also expect the Agency’s portion will ultimately be used for recreation. According
     to NASA, DOE, and EPA officials and in light of this expected land use, a normal NEPA
     process – where the full range of alternatives would be identified and evaluated prior to
     deciding on the course of action – would likely have led to a decision to clean the area to
     a less stringent standard than background levels. Although California officials have not
     yet established the specific criteria necessary for NASA to achieve background levels for
     the various contaminants at the site, these levels are expected to approximate the natural
     concentrations that would have been found in the soil prior to any rocket testing
     activities.

     Less Costly Cleanup Alternatives Exist. NASA estimates potential costs of more than
     $200 million to clean its portion of the SSFL site to background levels to meet the terms
     of the AOC. This compares to $76 million to make the site appropriate for residential use
     and $25 million for recreational use. As shown in Table 2, the possible scenarios for
     NASA’s remediation efforts at the SSFL site vary considerably in effort required and in

     25
          The estimates above are for the soil cleanup at SSFL based on the 2010 AOC. They do not include the
          cost of groundwater cleanup, which is still governed by the 2007 agreement.



10                                                                                      REPORT NO. IG-13-007
RESULTS



   cost. For example, the difference in making the site suitable for residential use versus
   achieving background levels is approximately $133 million. DTSC officials told us they
   believe NASA’s cost estimate for achieving background levels is overstated, but NASA
   officials insist their estimates are based on the effort that would be required to meet the
   2017 deadline and the exposure levels the DTSC previously required in the 2007 Consent
   Order.

   Table 2: Cleanup Levels and Associated Soil Removal and Cost Estimates

   Cleanup Level                             Estimated Amount of Soil         NASA’s Estimated Cost
                                             to be Removed (cubic
                                             yards)
   Background (required under AOC)           502,000                          $209 million
   Residential                               182,000                          $76 million
   Industrial                                92,000                           $37 million
   Recreational (expected future land        58,000                           $25 million
   use for SSFL)
   No Action                                 Not Applicable                   Not Applicable
  Source: NASA presentation to the community surrounding the SSFL.


   Interests of Outside Parties Played a Significant Role in NASA’s Cleanup Decision.
   Although the NASA Administrator ultimately agreed to the AOC, other NASA officials
   involved in discussions about the Santa Susana cleanup expressed reservations about the
   terms of the agreement, with one senior official writing “…be advised that I believe [the
   AOC] to be inappropriately written and executed and sign it with reservations.”
   According to NASA officials, input from members of Congress and local California
   leaders as well as advice from the CEQ played a significant role in the Agency’s decision
   to agree to the terms of the AOC and in its subsequent decision to exclude clean-up
   alternatives other than background levels from further consideration in the NEPA
   process.

   NASA, Boeing, and DOE officials told us that political interest in the SSFL cleanup is
   rooted in a long history of community distrust about the Federal Government’s activities
   at the site, particularly the nuclear testing and research the Government conducted there
   in the 1950s. According to DOE officials, a partial meltdown of one of the nuclear
   reactors at DOE’s portion of the site in 1959 has been a longstanding focus of public
   attention and suspicion from anti-nuclear groups.26 DTSC officials also cited community
   distrust as one of the reasons California has taken a particularly aggressive approach to
   the SSFL cleanup.

   As part of the NEPA scoping process, NASA identified five possible alternatives for
   remediation of the soil at the SSFL site, including cleaning to residential and recreational
   use standards. However, NASA’s inclusion of the full range of possible clean-up
   alternatives caused concern among DTSC officials and California political leaders. The

   26
        In fall 2012, the EPA released preliminary results showing lingering radiological contamination in the
        DOE-managed portion of the SSFL.



REPORT NO. IG-13-007                                                                                             11
                                                                                                               RESULTS



     State asked NASA to limit the NEPA process to the standard agreed to in the AOC. In a
     letter to the NASA Administrator dated March 29, 2012, Senator Boxer raised concerns
     that NASA might be backing away from its agreement with California to clean up the site
     “…to the conditions that existed prior to NASA’s activities.” The letter stated:

            I was alarmed to learn that NASA has threatened to unilaterally move forward without addressing the
            state’s legitimate concerns and without laying the groundwork for protecting public health in a manner
            that is consistent with its agreement. I share California’s very serious concerns about what appears to
            be NASA’s apparent disregard of the commitment that it has made to the state and its citizens.

     Senator Boxer sent a letter to the CEQ in early May 2012 asking whether NEPA required
     NASA to consider alternative levels of remediation for Santa Susana (such as residential
     or recreational levels) in light of its agreement to clean up the site to a background level.
     In her June 2012 letter to Senator Boxer, the chair of the CEQ responded:
            CEQ encourages agencies to carry out robust alternative analyses that consider all reasonable
            alternatives, including those that are not within the agencies’ authorities. The real focus, however,
            must always be on a meaningful consideration of alternatives. In this particular situation, where
            NASA has signed the Agreement [the AOC] and committed to a cleanup standard to background,
            nothing under NEPA or CEQ regulations constrains NASA from looking beyond cleanup to
            background, even though some may consider the analysis unnecessary and inconsistent with the
            agreement NASA signed with the State. However, there is no requirement that NASA consider
            alternatives that cleanup to other standards that differ from the agreement with the State.

     The CEQ Chair noted that because the Agency had committed to clean up the Santa
     Susana site to background levels, “…NASA is not compelled to consider less
     comprehensive cleanup measures as alternatives.” 27

     CEQ officials told us that although they understood the costs to clean the SSFL site to
     background levels were potentially greater than the costs associated with the cleanup
     standard outlined in the 2007 consent order, they advised NASA of several other factors
     to consider, including:


             …the State of California’s sovereign determination that there was a benefit to its environment and its
            citizens derived from a cleanup to background as represented by its legislation and its administrative
            enforcement actions; the contamination represented a legacy cost of rocket testing, rather than a new
            operating expense; the cleanup’s projected costs did not seem out of proportion to other similarly
            complex cleanups; the Federal Government’s involvement at this site had been longstanding; the
            length of the cleanup dispute had been substantial; the contamination was of a highly toxic nature; the
            continued deeply-felt health concerns by the community over many years; the site’s location in
            proximity to highly populated areas; the strongly-held views of State and Congressional delegation
            officials; and the pendency of Federal legislation introduced by California’s Senators that could affect
            the parties’ obligations regarding the site.



     27
          The letter from CEQ Chair Nancy H. Sutley describes the CEQ’s role as overseeing “implementation of
          NEPA, principally through issuance and interpretation of NEPA regulations that implement the
          requirements of NEPA.” Chair Sutley’s letter is included in Appendix D of this report.



12                                                                                           REPORT NO. IG-13-007
RESULTS



  Uncertainty Remains Concerning Required Cleanup Methods and Associated Costs.
  According to the AOC, the DTSC is responsible for determining the specific parameters
  defining the local background levels for the SSFL site. As part of this effort, the DTSC
  plans to prepare “look-up tables” identifying the level of chemical concentrations that
  may remain on the site after cleanup, which in turn will determine the cleanup methods
  NASA will use and how much soil the Agency will need to remove from the site.
  Although, DTSC officials told us they expect to develop these look-up tables by the end
  of 2012, NASA has not received the tables as of early January 2013.

  Until the DTSC sets these levels, it remains unclear which specific methods NASA can
  use to clean the site and therefore difficult to estimate the total cost of the cleanup.
  During the course of our audit, we found that NASA, DOE, Boeing, and DTSC have
  different interpretations regarding what the AOC allows and the extent of efforts
  necessary to achieve the standards outlined in the agreement. For example, confusion
  among the parties appears to exist about whether certain “leave in place” remediation
  methods are viable options or whether all of the contaminated soil would need to be
  removed and replaced. The AOC provides that “cleanup to background levels” requires
  removal of soils that do not meet the articulated background standard. However, another
  provision of the agreement suggests that “in situ or other onsite treatment of soils” may
  be used if they will achieve the required remediation standard.28 According to DTSC
  officials, such onsite options could include oxidation/reduction, biological treatment, and
  soil vapor extraction.29

  NASA, DOE, and Boeing officials told us that putting aside the apparent contradictory
  language in the agreement; it would not be possible to meet the 2017 deadline using the
  onsite cleanup methods identified by the DTSC. In the view of these officials, cleaning
  the site to background levels by 2017 would require NASA to excavate and remove
  502,000 cubic yards of soil from the site to meet the cleanup standard required by the
  AOC.30 According to NASA officials, meeting this cleanup standard under this table
  would require a cadre of employees working 24 hours a day/7 days a week for
  approximately 2 years. They asserted that such a level of effort is not realistic given the
  number of trucks that would be needed to remove the contaminated soil and the
  deleterious effect such an undertaking would have on the surrounding residential
  neighborhoods. They also noted that less stringent cleanup levels would require less soil
  be removed from the site, which would be more cost-effective and less disruptive to the
  surrounding community. In their response to our inquiry, CEQ officials also stated that
  due to the length of time needed for the NEPA process, as well as California’s own

  28
       AOC Section 1.7.2 through Section 1.7.2.2
  29
       Oxidation/reduction involves the injection of strong oxidants such as hydrogen peroxide, ozone gas,
       potassium permanganate or persulfates into the soil to enhance oxidation. Biological treatment, also
       known as bioremediation, treats environmental problems through biological means. Soil vapor
       extraction removes contamination from soil through air or steam.
  30
       Boeing estimated that cleaning the entire Santa Susana site to this standard would require the removal of
       approximately 1.6 million cubic yards of soil – enough soil, according to the company, to fill the Rose
       Bowl in Pasadena three or four times.



REPORT NO. IG-13-007                                                                                               13
                                                                                           RESULTS



     environmental analysis, they did not believe there would be sufficient time to perform the
     cleanup by the 2017 deadline.

     Other Remediation Projects Pose Greater Risk to Human Health than Santa
     Susana. According to NASA Headquarters personnel, although the SSFL project is a top
     priority because of intense community and political interest, it poses less of a health risk
     than other sites on NASA’s environmental cleanup list.

     The Agency’s FY 2013 budget request of $66 million for its Environmental and
     Compliance Restoration Program includes an increase of approximately $30 million per
     year from FYs 2014 through 2017 (compared to the FY 2011 budget) to help fund the
     SSFL cleanup. However, NASA officials said if the Agency does not receive the
     requested increase it may be forced to delay the cleanup or redirect funding from other
     projects that, according to its priority list, pose a greater health risk.

     Cleanup to Background Levels Could Pose Significant Risk of Damage to the Local
     Environment and Agricultural Resources. Because the specific cleanup methods have
     yet to be determined, their ultimate impact on the Santa Susana site is uncertain.
     Nevertheless, because cleanup to background levels may involve highly invasive soil
     removal activities, the cleanup process itself may result in significant damage to the
     surrounding environment and to archeological, historical, and natural resources at the
     SSFL.

     According to NASA, DOE, and Boeing officials, excavation and removal of
     contaminated soil could result in unplanned human and environmental health risks due to
     increased truck traffic, creation of additional access roads into the property, damage to
     residential and public roadways, air pollution, and contamination due to debris falling off
     the trucks. In addition, removing the projected amount of soil may significantly alter the
     natural beauty of the property. See Figure 4 for a view of the area surrounding the SSFL.

            Figure 4 – View of Area Surrounding SSFL




            Source: OIG (May 2012).



14                                                                          REPORT NO. IG-13-007
RESULTS




  Moreover, once the contaminated soil has been removed, additional soil would need to be
  hauled in to restore the site to a natural state. Officials from NASA, DOE, and Boeing
  expressed concerns that it may be difficult to find soil for backfill that meets the stringent
  standards, as well as bringing in “foreign soil” may introduce seeds or other materials
  that are not native to the area, thereby negatively affecting plants and animals at the site.
  In addition, at least one public interest group has expressed concerns about the effect the
  cleanup could have on the natural and historical resources present at the site.31

  The State of California has designated nearly 100 acres of the SSFL site as high priority
  natural conservation habitat and parts of the property are federally designated wetlands. 32
  In addition, the site is home to at least 10 species of sensitive plants, including the
  southern willow scrub, the Ventura Coastal sage scrub, coastal live oak, and the Santa
  Susana tarplant, and to at least 5 species of sensitive wildlife, including the coast horned
  lizard and the two-striped garter snake.

  Extensive soil removal could also damage archeological resources at the Santa Susana
  site, including the Burro Flats Painted Cave, which is located on NASA’s portion of the
  site and contains pictographs and petroglyphs created by early Native Americans.33
  According to NASA, archaeologists have described the Painted Cave as containing some
  of the best-preserved and finest examples of prehistoric pictographic art in North
  America. In addition, the Cave is listed on the National Register of Historic Places. See
  Figure 5 for a sample of pictographic art at Burro Flats Painted Cave.




  31
       September 19, 2012, letter to the NASA Administrator from the San Fernando Valley Audubon Society.
       (See Appendix E for the full text of the letter).
  32
       The Environmental Protection Agency works in partnership with states, tribes, local governments, the
       private sector, and citizen organizations to monitor, protect, and restore valuable designated wetlands,
       which are home to sensitive species. Sensitive species are species whose populations are reducing and
       that are or potentially may become endangered.




REPORT NO. IG-13-007                                                                                              15
                                                                                            RESULTS



            Figure 5 – Pictographic Art from Burro Flats Painted Cave




            Source: NASA Santa Susana Field Laboratory Fact Sheet

Conclusion

     NASA officials faced very difficult choices when deciding how to proceed with the
     environmental cleanup at Santa Susana. As stewards of taxpayer dollars they are
     required to comply with various Federal laws and processes intended to ensure that
     environmental risks are properly assessed to identify the most cost-effective method of
     remediation. Conversely, political leaders and segments of the California public pushed
     aggressively for the strict cleanup standard outlined in the AOC. In the end, NASA
     agreed to the most extensive and expensive remediation option for its Santa Susana
     property – clean up to background level.

     We question whether NASA’s agreement to clean its portion of the SSFL to background
     levels is the best use of limited NASA environmental remediation funds, particularly in
     light of the expected use of the property and the Agency’s need to address other higher-
     risk environmental issues. NASA’s estimate of more than $200 million to clean the site
     to background levels is more than two times the cost of restoring the land for residential
     use and more than eight times the estimated cost of restoring the site for recreational use.
     Given NASA’s other environmental commitments and the fiscal constraints facing the
     Agency and the Nation, NASA can ill afford to spend tens of millions of dollars to clean
     up an area beyond its risk level or expected land use. Moreover, we are concerned about
     the potential adverse effects on the surrounding community and on natural and
     archeological resources at the site should NASA press forward with a cleanup to
     background levels.

     NASA still has several opportunities to reduce the ultimate cost of its Santa Susana
     cleanup. Among other options, the Agency may be able to negotiate with the DTSC


16                                                                           REPORT NO. IG-13-007
RESULTS



  regarding the 2017 deadline and the potential use of on-site cleanup methods that would
  reduce or eliminate the need to haul away half a million cubic yards of soil. Moreover,
  resolution of Boeing’s challenge to the constitutionality of SB 990 may inform the
  Agency’s position in discussions with California environmental officials about the scope
  and timetable of its cleanup effort.

Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. We recommend that the Administrator, with the assistance of the
Associate Administrator for Mission Support, reexamine the Agency’s current plans for
cleaning the NASA-administered portion of the Santa Susana site and ensure that its
environmental remediation is conducted in the most cost-effective manner in keeping with
the expected future use of the property.

  Management’s Response. The Associate Administrator declined to indicate whether it
  agreed or disagreed with our recommendation. Rather, after noting that NASA “fully
  appreciates” our recommendation, he stated that the Agency will continue to work with
  the DTSC and local community stakeholders “within the requirements” of the AOC and
  at the same time will “make every effort to implement a [cleanup] program that will
  achieve both cost avoidance and protection of cultural and natural resources.” In
  addition, the Associate Administrator noted several recent developments that may affect
  how the AOC is interpreted and implemented. Specifically, he mentioned that the United
  States Court of Appeals for the Ninth Circuit recently invited the Solicitor General of the
  United States to be heard on Boeing’s challenge to the constitutionality of SB 990 and
  that the Santa Ynez Band of Chumash Indians has expressed concerns about the impact
  the cleanup could have on sacred heritage interests at the site. (See Appendix F for
  Management’s Response).

  Evaluation of Management’s Response. Although we are encouraged by NASA’s
  pledge to work toward a cleanup that achieves cost avoidance and preserves cultural and
  natural resources, it is not clear that the Agency can achieve the most appropriate and
  cost-effective remediation effort given the constraints of the current AOC. Accordingly,
  our recommendation remains unresolved and we will continue to monitor the Agency’s
  efforts to clean the Santa Susana site.




REPORT NO. IG-13-007                                                                            17
APPENDIX A




                                                                        APPENDIX A


Scope and Methodology

  We performed this audit from March 2012 through January 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives. Our announced objectives included determining whether NASA’s
  efforts to clean up the environmental contamination at the SSFL site are reasonable and
  attainable and whether NASA is effectively coordinating its efforts with Boeing and other
  Federal entities at SSFL.

  We performed work at NASA Headquarters, Environmental Management Division,
  Marshall Space Flight Center, and visited the Santa Susana Field Laboratory site in Simi
  Valley, California. We interviewed representatives from Headquarters, EMD Division,
  Marshall Space Flight Center’s SSFL Project Manager, SSFL site personnel, DTSC
  personnel, EPA personnel, DOE personnel, Boeing personnel, and NASA’s legal
  counsel. We reviewed NASA’s Draft EIS documents, NASA’s Cost Estimate
  documents, the 2007 AOC, the 2010 AOC, Senate Bill 990, Boeing court documents,
  DTSC court documents, NASA’s FY 2012 budget and project list, and NASA’s FY 2013
  budget and project list.

Criteria

  We reviewed Federal and state laws, NASA and environmental policies, regulations, and
  procedures to determine the requirements, criteria, and processes for assessing
  environmental remediation cleanup. The documents reviewed included: NPD and
  8500.1B, “NASA Environmental Management,” December 20, 2007, NPR 8553.1B,
  “NASA Environmental Management System,” September 22, 2009, NPR
  8580.1,“Implementing The National Environmental Policy Act and Executive Order
  12114,” November 26, 2001, NPR 8590.1A, “NASA Environmental Compliance and
  Restoration Program,” July 18, 2011, NPR 8800.15B, “Real Estate Management
  Program,” June 21, 2010, NPR 9260.1, “Revenue, Unfunded Liabilities and Other
  Liabilities,” September 30, 2008, National Environmental Policy Act of 1969 (NEPA),
  January 1, 1970, “Comprehensive Environmental Response, Compensation, and Liability
  Act (CERCLA),” December 11, 1980, Resource Conservation and Recovery Act
  (RCRA), October 21, 1976, and California Senate Bill 990, dated October 14, 2007.

  Use of Computer-Processed Data. We did not use computer-processed data to perform
  this audit.

REPORT NO. IG-13-007                                                                          18
                                                                                         APPENDIX A



Review of Internal Controls

     We reviewed and evaluated internal controls associated with the environmental
     remediation efforts at SSFL, including the decision process used in determining the
     cleanup level, cost estimates, and other impacts of cleaning up the site to a background
     exposure level. Our review included an evaluation of the actions planned and taken by
     NASA, as well as actions planned related to the cleanup effort. We found deficiencies in
     these areas as discussed in this report.

Prior Coverage

     During the past 5 years, the NASA Office of Inspector General (OIG) and the GAO have
     issued 10 reports of particular relevance to the subject of this report. Unrestricted reports
     can be accessed over the Internet at http://oig.nasa.gov/ (NASA OIG),
     http://www.gao.gov (GAO)

     NASA Office of Inspector General

     “Cost Sharing for Santa Susana Field Laboratory Cleanup Activities” (IG-98-024, August
      18, 1998)
     “Cost Sharing for Environmental Cleanup Efforts” (IG-01-007, December 8, 2000)

     “Audit of the National Aeronautics and Space Administration’s Fiscal Year 2009
      Financial Statements” (IG-10-002, November 13, 2009)
     “Audit of the National Aeronautics and Space Administration’s Fiscal Year 2010
      Financial Statements” (IG-11-006, November 15, 2010)
     Government Accountability Office

     “Environmental Cleanup Costs: NASA is Making Progress in Identifying Contamination,
      but More Effort Is Needed” (GAO/NSIAD-97-98, June 27, 1997)
     “Military Base Closures: Overview of Economic Recovery, Property Transfer, and
      Environmental Cleanup.” (Statement of Barry W. Holman, Director, Defense
      Capabilities and Management)” (GAO-01-1054T, August 28, 2001)
     “Military Base Closures: Opportunities Exist to Improve Environmental Cleanup Cost
      Reporting and to Expedite Transfer of Unneeded Property” (GAO-07-166, January 30,
      2007)
     “NASA: Agency Faces Challenges Defining Scope and Costs of Space Shuttle Transition
      and Retirement” (GAO-08-1096, September 30, 2008)
     “Environmental Contamination: Information on the Funding and Cleanup Status of
      Defense Sites” (GAO-10-547T, March 17, 2010)

19                                                                           REPORT NO. IG-13-007
APPENDIX A



  “Superfund: Interagency Agreements and Improved Project Management Needed to
   Achieve Cleanup Progress at Key Defense Installations” (GAO-10-348, July 15, 2010)




REPORT NO. IG-13-007                                                                    20
APPENDIX B



         Letter from Senator Boxer to the NASA Administrator




21                                                 REPORT NO. IG-13-007
                                                           APPENDIX C



              Letter from DTSC to the NASA Administrator




REPORT NO. IG-13-007                                              22
APPENDIX C




23           REPORT NO. IG-13-007
                       APPENDIX C




REPORT NO. IG-13-007          24
APPENDIX C




25           REPORT NO. IG-13-007
                       APPENDIX C




REPORT NO. IG-13-007          26
APPENDIX D


             Letter from CEQ to Senator Boxer




27                                              REPORT NO. IG-13-007
                       APPENDIX D




REPORT NO. IG-13-007          28
APPENDIX E



      Letter from the San Fernando Valley Audubon Society to the
       NASA Assistant Administrator for Strategic Infrastructure




29                                                  REPORT NO. IG-13-007
                       APPENDIX E




REPORT NO. IG-13-007          30
APPENDIX E




31           REPORT NO. IG-13-007
                       APPENDIX F




     MANAGEMENT COMMENTS




32            REPORT NO. IG-13-007
APPENDIX F




REPORT NO. IG-13-007   33
                                                                                  APPENDIX G




                                                           REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Associate Administrator
     Chief of Staff
     Executive Officer
     Chief Financial Officer
     General Counsel
     Associate Administrator for Legislative and Intergovernmental Affairs
     Associate Administrator for Mission Support Directorate
        Assistant Administrator for the Office of Strategic Infrastructure
     Director, Marshall Space Flight Center
        Program Director, Santa Susana Field Laboratory
     NASA Advisory Council’s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing
     Executive Office of the President, Council on Environmental Quality
            Director, Council on Environmental Quality
     Department of Energy
            Energy Technology Engineering Center, SSFL Federal Project Director
            Office of Inspector General
     General Services Administration
            Program Expert, Real Property Utilization & Disposal Division, PBS Office of
                   Real Property Asset Management
     California Department of Toxic Substances Control
            Director, Department of Toxic Substances Control
     Boeing Company
            Director, SSFL Environmental Remediation Office




34                                                                       REPORT NO. IG-13-007
APPENDIX G



Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Environment and Public Works
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies

  House Committee on Oversight and Government Reform
     Subcommittee on Government Organization, Efficiency, and Financial Management
  House Committee on Science, Space, and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics
        Mr. Brian Miller, District Director for Rep. Elton Gallegly




REPORT NO. IG-13-007                                                                 35
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Karen VanSant, Project Manager
   Rebecca Carpenter, Team Lead Auditor
   Amy Bannister, Auditor
   Ronald Yarbrough, Project Manager - Safety and Health Specialist
   Earl Baker, Attorney/Advisor
   James Mitzelfeld, Attorney/Advisor




REPORT NO. IG-13-007                                                  37
                                                                                  FEBRUARY 14, 2013
                                                                        REPORT No. IG-13-007




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
